HHS/OIG, Audit -"Review of Vermont Medicaid School-Based Services for the Period October 2001 Through September
2002,"(A-01-03-00004)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Vermont Medicaid School-Based Services for the Period October 2001 Through September 2002," (A-01-03-00004)
January 18, 2005
Complete
Text of Report is available in PDF format (667 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs that Vermont claimed for school-based child health services
were allowable and adequately supported in accordance with Federal regulations and the Medicaid State plan.  We found
that, of the 1,087 claims in our statistical sample, 240 were not allowable or adequately supported.  As a result,
we estimated that the State improperly claimed $1,463,395 in Federal funds for school-based services.  In addition
to recommendations to correct procedural weaknesses, we recommended that the State refund the $1,463,395 in Federal funds.  The
State commented that it had made some significant improvements in the program that addressed our procedural recommendations.  Although
the State agreed with our findings for a number of the sampled claims reviewed, it believed that the dollar impact of the
errors included in the report were overstated.